No.

IN THE
SUPREME COURT OF THE UNITED STATES

Inre Randy Dale Jackson -PETITIONER

PROOF OF SERVICE

I,
y>V/)£

, do swear or declare that on this date,
\Lf

20 (Ll

. as required by Supreme Court Rule 29 I have served the enclosed

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF HABEAS
CORPUS on each party to the above proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first- class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within 3 calendar days.$$

•

The names and addresses of those served are as follows:
J
•

Solicitor General of The United States Room 5614 DOJ, 950
Pennsylvania Ave, N.W., Washington D.C. 20530-0001

Mississippi AtdoCnc'l Q&nefa1
■fco.

'5<ktKsif)/ ms

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

5me

, ;tf

,20.

01

